                        National Archives and Records Administration
                                                                                             8601 Adelphi Road
                                                                            College Park, Maryland 20740-6001

Date       : December 9, 2005

Reply to    Office of Inspector General (OIG)
Attn of


Subject    Audit Report No. 06-06 Clifton Gunderson LLP (CG) Audit of the National Archives and Records
           Administration FY 2005 Financial Statements

To         : Allen Weinstein, Archivist of the United States (N)


            Enclosed for your review are the reports prepared by Clifton Gunderson, LLP (CG) for the
            subject audit. CG issued a qualified opinion for the effects of adjustments, if any, as might have
            been necessary had they been able to perform adequate audit procedures on obligations and
            outlays related to investments. NARA did not record obligations and outlays for purchases and
            redemption in its non-federal investments, as required by OMB Circular A-11, Preparation,
            Submission, and Execution of Budget.

            CG reported 1 material weakness and 4 reportable conditions resulting in 25 recommendations
            that if implemented, should correct the matters reported.

            a. The material weakness is in investments. NARA did not record obligations and outlays for
            purchases and redemption in its non-federal investments, as required by OMB Circular A-11,
            Preparation, Submission, and Execution of Budget.

            b. Information technology is considered a reportable condition. CG reported concerns with
            software development and change controls, entity-wide security program, controls to protect
            information and contingency plans.

            c. Financial reporting is another reportable condition. CG reported concerns with the general
            ledger system setup and posting model definitions, obligations review and the lack of an
            integrated financial management system.

            d. Property, plant and equipment is considered a reportable condition. CG noted that costs
            associated with internally developed software were not maintained in the cost center designed to
            track the software development phases and processes to ensure compliance with the Federal
            accounting capitalization standard.

            e. Payroll is also considered a reportable condition. CG noted that controls over the maintenance
            of supporting documentation, validation and authorization of payroll related transactions need to
            be strengthened.




                                      National Archives and Records Administration
CG also reported that NARA’s financial management systems did not substantially comply with
the Federal financial management systems requirements and the United States Standard General
Ledger at the transaction level.

In connection with the contract, we reviewed CG’s report and related documentation and
inquired of its representatives. Our review, as differentiated from an audit in accordance with
U.S. Generally Accepted Government Auditing Standards (GAGAS) was not intended to enable
use to express, as we do not express, an opinion on NARA’s financial statements or conclusions
about the effectiveness of internal control or on whether NARA’s financial management system
substantially complied with FFMIA; or conclusions with laws and regulations. CG is
responsible for the attached auditor’s report dated November 3, 2005and the conclusions
expressed in the report. However, our review disclosed no instances where CG did not comply,
in all material respects, with GAGAS.

In accordance with NARA 1201, your written response to each recommendation is due within 45
days. We appreciate the cooperation and assistance NARA extended to CG and my staff during
the audit. If you have any questions, please contact me or James Springs, Assistant Inspector
General for Auditing at (301) 837-3000.




Paul Brachfeld
Inspector General




                            National Archives and Records Administration
